No. ______
In the

Supreme Court of the United States
__________________
EE HOONG LIANG,
v.

Petitioner,

PANIRCELVAN KALIANNAN; TONG LAY YEEN
GIOVANNA; TAN HOCK SENG; ROGER TEO KOK WEI;
TEO KHIM HO; CHANG MUN KUMCHRISTINA; KOH
HWEE BEN ERIN; NG YIM HAR; KOH THONG JUAY;
TONG SIEW GEOK,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

__________________

PETITION FOR A WRIT OF CERTIORARI
__________________
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Personal Jurisdiction and Forum Non Conveniens
1) All the parties are citizens and residents of the
Republic of Singapore, where they live, work, and
shared their investment group in which the “untrue
statements” and “sales” by Mr. Ee allegedly occurred.
The Singaporean plaintiffs, however, represented by
United States lawyers, sued their fellow Singaporean
in the United States District Court, and the lower
courts ruled that specific jurisdiction existed over Mr.
Ee because he visited North Dakota once and emailed
to his fellow group members pictures of the “man
camps” in which they were all (Mr. Ee too) investing.
Did this satisfy the “arise out of” or “relate to” aspects
of the minimum contacts requirement?
2) Was the District Court required to assess
principles of forum non conveniens in deciding whether
it was “reasonable” for the United States court to
exercise personal jurisdiction over the foreign Mr. Ee
such that it did not “offend traditional notions of fair
play and substantial justice”?
Summary Judgment
Does Fed. R. Civ. Pr. 56 require a District Court to
assess all the evidence a moving party presents on
summary judgment, or may the court rely solely on
“deemed admitted” Requests for Admissions obtained
by default – even if the sales contracts and other proofs
also attached to the motion belie the elements of the
breach of contract and other claims on which the
plaintiff demands judgment?

ii
PARTIES TO THE PROCEEDINGS
Petitioner Ee Hoong Liang was the defendant in the
United States District Court and the appellant in the
United States Court of Appeals.
Respondents
(identified in the caption above) were the plaintiffs in
the District Court and the appellees in the Court of
Appeals.
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in any court that are
directly related to this case.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . 14
I. The Court should clarify the due process limits
of specific jurisdiction over a foreign person . . . 14
II. The Court should clarify the extent to which a
district court is required to assess the evidence
that the plaintiff submits on summary
judgment, and related aspects of Fed. R. Civ. Pr.
56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

iv
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eighth Circuit
(June 18, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Defendant Ee Hoong
Liang’s Motions to Dismiss Complaint
in the United States District Court for
the District of North Dakota
(March 27, 2018) . . . . . . . . . . . . . App. 17

v
TABLE OF AUTHORITIES
CASES
Aleem v. Pearce & Durick,
No. 1:15-cv-85 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Anchorage Assocs. v. Virgin Islands Bd. of Tax Rev.,
922 F.2d 168 (3d Cir. 1990) . . . . . . . . . . . . . . . . 31
Asahi Metal Indus. Co. v. Superior Ct.,
480 U.S. 102 (1987). . . . . . . . . . . . . . . . . . . . 10, 23
Ballard v. Savage,
65 F.3d 1495 (9th Cir. 1995). . . . . . . . . . . . . . . . 24
Bristol-Myers Squibb Co. v. Superior Ct. of
California, San Francisco Cty.,
137 S. Ct. 1773,
198 L. Ed. 2d 395 (2017) . . . . . . . . . . 16, 17, 19, 21
Burger King Corp. v. Rudzewicz,
471 U.S. 462, 105 S. Ct. 2174,
85 L. Ed. 2d 528 (1985) . . . . . . . . . . . . . . 16, 17, 22
Daimler AG v. Bauman,
571 U.S. 117, 134 S. Ct. 746,
187 L. Ed. 2d 624 (2014) . . . . . . . . . . . . . . . . . . . 16
Day & Zimmermann, Inc. v. Challoner,
423 U.S. 3, 96 S. Ct. 167,
46 L. Ed. 2d 3 (1975). . . . . . . . . . . . . . . . . . . . . . 22
Digi-Tel Holdings, Inc. v. Proteq Telecomms.
(PTE), Ltd., 89 F.3d 519 (8th Cir. 1996) . . . . . . 10

vi
Ford Motor Co. v. Montana Eighth Jud. Dist. Ct.,
141 S. Ct. 1017,
209 L. Ed. 2d 225 (2021) . . . . . . . . . . . . . . . passim
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915, 131 S. Ct. 2846,
180 L. Ed. 2d 796 (2011) . . . . . . . . . . . . . . . . . . . 17
Hanson v. Denckla,
357 U.S. 235, 78 S. Ct. 1228,
2 L. Ed. 2d 1283 (1958) . . . . . . . . . . . . . . . . . . . . 16
Helicopteros Nacionales de Colombia, S.A. v. Hall,
466 U.S. 408, 104 S. Ct. 1868,
80 L. Ed. 2d 404 (1984) . . . . . . . . . . . . . . . . . . . . 16
Int’l Shoe Co. v. State of Wash., Off. of
Unemployment Comp. & Placement,
326 U.S. 310, 66 S. Ct. 154,
90 L. Ed. 95 (1945) . . . . . . . . . . . . . . 16, 17, 19, 20
Interstate Power Co. v. Kansas City Power &
Light Co., 992 F.2d 804 (8th Cir. 1993) . . . . . . . 31
Jackson v. Fed. Exp.,
766 F.3d 189 (2d Cir. 2014) . . . . . . . . . . . . . . . . 31
Jaroma v. Massey,
873 F.2d 17 (1st Cir. 1989) . . . . . . . . . . . . . . . . . 31
K-V Pharm. Co. v. J. Uriach & CIA, S.A.,
648 F.3d 588 (8th Cir. 2011). . . . . . . . . . . . 7, 8, 10
Keeton v. Hustler Mag., Inc.,
465 U.S. 770, 104 S. Ct. 1473,
79 L. Ed. 2d 790 (1984) . . . . . . . . . . . . . . . . . . . . 16

vii
Land-O-Nod Co. v. Bassett Furniture Indus., Inc.,
708 F.2d 1338 (8th Cir. 1983). . . . . . . . . . . . . . . 20
Nowak v. Tak How Invs., Ltd.,
94 F.3d 708 (1st Cir. 1996) . . . . . . . . . . . . . . . . . 23
Richards v. United States,
369 U.S. 1, 82 S. Ct. 585,
7 L. Ed. 2d 492 (1962). . . . . . . . . . . . . . . . . . . . . 22
Sosa v. Alvarez-Machain,
542 U.S. 692, 124 S. Ct. 2739,
159 L. Ed. 2d 718 (2004) . . . . . . . . . . . . . . . . . . . 22
Walden v. Fiore,
571 U.S. 277, 134 S. Ct. 1115,
188 L. Ed. 2d 12 (2014) . . . . . . . . . . . . . . . . . 16, 18
Wells Dairy, Inc. v. Food Movers Int’l,
607 F.3d 515 (8th Cir. 2010). . . . . . . . . . . . . . . . 10
Whaley v. Esebag,
946 F.3d 447 (8th Cir. 2020). . . . . . . . . . . . . . . . . 7
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 100 S. Ct. 580,
62 L. Ed. 2d 490 (1980) . . . . . . . . . . . . . . . . . . . . 17
Wright v. Pearce & Durick,
No. 1:15-cv-98 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTION AND STATUTES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 771(a)(2) . . . . . . . . . . . . . . . . . . . . . . 4, 18
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

viii
N.D.C.C. § 10-04-02.1. . . . . . . . . . . . . . . . . . . . . . . . 31
N.D.C.C. § 10-04-15(2) . . . . . . . . . . . . . . . . . . . . . . . 32
N.D.C.C. § 10-01-17 . . . . . . . . . . . . . . . . . . . . . . . . . . 4
RULES
Fed. R. Civ. P. 9 . . . . . . . . . . . . . . . . . . . . . . . . . 27, 28
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 60 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
OTHER AUTHORITIES
Restatement (First) of Conflict of Laws (1934). . . . 22
United States Securities and Exchange Commission
v. North Dakota Developments, LLC, et al.,
4:15-cv-0053, Doc. 1 (D.N.D., May 5, 2015) . . . . . 3

1
PETITION FOR A WRIT OF CERTIORARI
Ee Hoong Liang petitions this Court for a writ of
certiorari to review the published decision of the Court
of Appeals and underlying District Court decision.
OPINIONS BELOW
The June 18, 2021 Decision of the United States
Court of Appeals for the Eighth Circuit is published,
Kaliannan v. Liang, 2 F.4th 727, 731 (8th Cir. 2021),
and appears at Appendix A. The March 27, 2018 Order
and Memorandum Decision of the United States
District Court for the District of North Dakota is
unpublished and appears at Appendix B.
JURISDICTION
The Decision of the United States Court of Appeals
was entered on June 18, 2021. App. A. This Court’s
jurisdiction is invoked under 28 U.S.C.A. § 1254.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Due Process Clause of the Fourteenth
Amendment provides, “nor shall any State deprive any
person of life, liberty, or property, without due process
of law.”
Federal Rule of Civil Procedure 56 provides in part
as follows (emphasis added):
(a) Motion for Summary Judgment or Partial
Summary Judgment. A party may move for
summary judgment, identifying each claim or
defense — or the part of each claim or defense —

2
on which summary judgment is sought. The
court shall grant summary judgment if the
movant shows that there is no genuine
dispute as to any material fact and the
movant is entitled to judgment as a matter
of law. ***
(c) Procedures.
(1) Supporting Factual Positions. A party
asserting that a fact cannot be or is
genuinely disputed must support the
assertion by:
(A) citing to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those made
for purposes of the motion only), admissions,
interrogatory answers, or other materials; or
(B) showing that the materials cited do not
establish the absence or presence of a
genuine dispute, or that an adverse party
cannot produce admissible evidence to support
the fact. ***
(3) Materials Not Cited. The court need consider
only the cited materials, but it may consider
other materials in the record.

3
STATEMENT OF THE CASE
In 2015, the United States Securities and Exchange
Commission instituted proceedings against North
Dakota Developments, LLC (“NDD”), and its two
owners, Robert Gavin and Daniel Hogan, alleging that
Gavin and Hogan fraudulently raised more than $62
million from investors around the world through sales
of “man camps” – mini-hotels designed to house
workers in North Dakota’s oil fields. This was a Ponzi
scheme orchestrated by Gavin and Hogan but appeared
legitimate to those defrauded. Housing for oil workers
was in short supply in 2012. NDD began offering to
investors the purchase of modular housing units that
could be leased to oil workers. The operations
appeared to run smoothly before sewerage tank leaks
and other issues caused low occupancy and a massive
drop in expected returns from their anticipated 25
percent to 2 percent. Some purchasers sold their units
back to NDD; some did not. Following complaints, the
SEC intervened and closed down the operation. United
States Securities and Exchange Commission v. North
Dakota Developments, LLC, et al., 4:15-cv-0053, Doc. 1,
¶ 41 (D.N.D., May 5, 2015).
Gavin and Hogan absconded with much of the
money paid into NDD. Defrauded investors began
looking elsewhere for redress. Lawyers instituted a
class action against the law firm that served as escrow
agent, Aleem v. Pearce & Durick, No. 1:15-cv-85;
Wright v. Pearce & Durick, No. 1:15-cv-98, and
considered others who could be pursued.

4
This Lawsuit Against Mr. Ee
Mr. Ee was not identified as a wrongdoer in the
SEC lawsuit. Mr. Ee and his wife also purchased man
camp units from NDD and at one point were members
of the Aleem class action against the lawyers who
participated in the scheme.
In fact, Mr. Ee communicated with lawyers about
representing Mr. Ee and his wife in claims for relief.
These same lawyers then later sued Mr. Ee on behalf
of plaintiffs in this lawsuit (Mr. Ee raised conflict of
interest objections against plaintiffs’ lawyers, but the
District Court denied relief on this ground, and the
Court of Appeals did not consider these arguments in
its decision below).
Plaintiffs, via their United States counsel, charged
in the District Court below that Mr. Ee was an “agent”
of the fraudulent company NDD and its two owners,
Gavin and Hogan, and that Mr. Ee made knowingly
“untrue statements” to plaintiffs in “sales” of the man
camp units to plaintiffs. Plaintiffs alleged that Mr. Ee
“as NDD’s sales agent” “actively assist[ed] NDD in
connection with the unlawful NDD Offering.”
“Plaintiffs’ claims against Defendant are for negligence
and strict liability arising out of Defendant’s sales of
NDD’s unregistered and fraudulent securities, and
Defendant’s sales of securities as an unregistered
agent, in violation of the North Dakota securities laws.”
Plaintiffs asserted claims under Section 12(a)(2) of the
Securities Act of 1933 (15 U.S.C. § 771(a)(2)); violations
of N.D.C.C. § 10-04-17 by offering and selling
unregistered securities, selling securities as an

5
unlicensed agent, and making untrue statements and
omissions; and negligence.
The threshold question of personal jurisdiction
arose because all the plaintiffs and Mr. Ee are citizens
of Singapore who live and work in Singapore, and
where they had their investment group at which Mr.
Ee was alleged to have made his “untrue statements”
and other wrongful acts.
Plaintiffs were represented in the United States
court by their United States lawyers, who acted on
their Singaporean clients’ behalf.
Defendant had no lawyer. He tried to represent
himself pro se from Singapore where he lived. He filed
a response to plaintiffs’ Complaint which the District
court clerk deemed an “answer.” Shortly after, he filed
a motion to dismiss for lack of personal jurisdiction and
improper venue, arguing that “the Court lacks
jurisdiction over him because neither the Plaintiffs nor
the Defendant are citizens of the United States; the
Plaintiffs and the Defendants do not operate businesses
in North Dakota, do not possess a North Dakota
mailing address, and do not hold North Dakota assets
or property.” The District Court denied defendant’s
motion on the papers, ruling, it was “evident Liang
transacted business with North Dakota entities on
several occasions. Liang’s contact with North Dakota
is not random, fortuitous, and attenuated. The nature
and quality of these contacts support the exercise of
personal jurisdiction over Liang.” “The Plaintiffs
presented prima facie evidence in their complaint that
Liang traveled to North Dakota to facilitate business
with NDD… Such contact satisfies the single contact

6
needed to give rise to personal jurisdiction over Liang…
Liang’s contact with Plaintiffs to facilitate the sale of
unregistered, fraudulent NDD securities related to
North Dakota real estate more than satisfies the
quantity of contacts needed to support personal
jurisdiction.” Though “none of the parties are residents
of North Dakota, the State would be a convenient
forum for this dispute because the property related to
the sale of unregistered, fraudulent securities is located
in North Dakota. Moreover, much of the activity
related to the sale or solicitation of unregistered,
fraudulent securities,” the court said. Id. “The
exercise of personal jurisdiction would not offend
traditional notions of fair play and substantial justice,”
the court ruled.
Still in Singapore and without United States
counsel, defendant did not respond to Requests for
Admissions that plaintiffs’ counsel had served. The
District Court said the Requests were “deemed
admitted.” Plaintiffs’ counsel quickly moved for
summary judgment. The District Court granted the
motion and entered judgment against Mr. Ee for
$852,638.81 based solely on the “deemed admitted”
Request that Mr. Ee – still in Singapore and without
United States counsel – failed to answer, stating,
“Considering that the Court deems the matters in the
Plaintiffs’ Request for Admission admitted and in light
of Liang’s failure to respond to the motion for summary
judgment, the Court GRANTS the Plaintiffs’ motion for
summary judgment.”

7
The Appeal Below
Mr. Ee appealed the District Court’s rulings on
personal jurisdiction and summary judgment (Mr. Ee
also tried to appeal the District Court’s denial of a Rule
60 motion he had filed, but the Court of Appeals ruled
there was no appellate jurisdiction over that ruling).
Mr. Ee argued that the exercise of personal jurisdiction
over him was improper under the Due Process Clause
and related principles of forum non conveniens, and
that entry of the massive $852,638.81 judgment
premised on solely on the “deemed admitted” Requests
for Admissions was improper under Federal Rule of
Civil Procedure 56 in light of the contradictory
documentary proof that also was submitted with
plaintiffs’ own motion.
After oral argument, the Court of Appeals affirmed
in a published decision, Kaliannan v. Liang, 2 F.4th
727, 731 (8th Cir. 2021).
The court ruled that the exercise of personal
jurisdiction over defendant was proper under the the
Due Process Clause of the Fourteenth Amendment.
Citing Eight Circuit precedent, the court said, “To
assess minimum contacts, we use a five-factor test,
with the first three factors being of ‘primary
importance’: ‘(1) the nature and quality of [defendant’s]
contacts with the forum state; (2) the quantity of such
contacts; (3) the relation of the cause of action to the
contacts; (4) the interest of the forum state in providing
a forum for its residents; and (5) convenience of the
parties.” Whaley v. Esebag, 946 F.3d 447, 452 (8th Cir.
2020). “The fourth and fifth factors ‘carry less weight
and are not dispositive,” the court said (citing K-V

8
Pharm. Co. v. J. Uriach & CIA, S.A., 648 F.3d 588,
592–93 (8th Cir. 2011)).
Viewing the facts in the light most favorable
to Plaintiffs, we find that the first and second
factors weigh in favor of exercising jurisdiction.
Plaintiffs allege that Defendant, among other
things: (1) actively recruited investors, including
Plaintiffs, to invest in a North Dakota company;
(2) brokered the sale of interests in North
Dakota real property and of North Dakotaissued securities; (3) received commissions from
North Dakota in connection with sales of NDD
securities; (4) communicated extensively with
various North Dakota entities in connection with
the sales; and (5) traveled to North Dakota in
order to market and sell the investments to
Plaintiffs and other investors, and on such trips
took photos and videos as “evidence” that the
NDD properties were functioning. Accepting
Plaintiffs’ allegations as true, Defendant’s
contacts with North Dakota were numerous, and
furthermore “were not ‘random, fortuitous, or
attenuated,’ but rather were central to an
alleged scheme to ‘purposely avail[] [himself] of
the privilege of conducting activities’ in [North
Dakota].” See Whaley, 946 F.3d at 452 (first and
second alterations in original) (citations
omitted). Accordingly, the first and second
factors weigh in favor of finding personal
jurisdiction.
We also agree with the district court that the
third factor weighs in favor of finding

9
jurisdiction because Defendant’s contacts with
North Dakota “directly relate to” Plaintiffs’
claims. See generally Ford Motor Co., 141 S. Ct.
1017 (holding that state can exercise specific
jurisdiction over defendant if defendant’s
contacts “relate to” plaintiff’s claim). According
to the amended complaint, Defendant
participated in an allegedly fraudulent scheme
by soliciting Plaintiffs to purchase unregistered
securities relating to North Dakota real estate.
Defendant communicated extensively with
Plaintiffs regarding the North Dakota properties
in order to convince Plaintiffs to invest.
Additionally, Plaintiffs allege that Defendant
traveled to North Dakota to take pictures and
videos of the properties, and in fact sent such
pictures and videos to Plaintiffs to help convince
them that their “investments” would be sound.
Defendant stresses that many of the parties’
communications about Plaintiffs’ “investments”
took place in Singapore. Assuming this is true,
the communications—and “investments”
themselves—still concerned North Dakota
properties. That the communications occurred
elsewhere does not undermine a finding that
Defendant’s North Dakota contacts “relate to”
Plaintiffs’ claims. Accordingly, we find that the
third factor weighs in favor of finding
jurisdiction. [App. 6]
The court of appeals said “the fourth factor does not
weigh in favor of finding jurisdiction,” but also stated,
“We do not disagree with the notion that there are local
elements to this dispute” despite the fact that all the

10
parties – every plaintiff included – was from Singapore.
The court said only that “the district court’s conclusion
does not precisely track our articulation of the fourth
factor as the ‘interest of the forum state in providing a
forum for its residents.’” (citing K-V Pharm. Co., 648
F.3d at 595 (finding that “Missouri obviously has an
interest in providing a forum for resident corporations
like [the plaintiff]”);Wells Dairy, Inc. v. Food Movers
Int’l, 607 F.3d 515, 520 (8th Cir. 2010) (“Iowa, as the
forum state, has an interest in providing a forum for its
company.”); Digi-Tel Holdings, Inc. v. Proteq
Telecomms. (PTE), Ltd., 89 F.3d 519, 525 (8th Cir.
1996) (noting that “Minnesota has an obvious interest
in providing a local forum in which its residents may
litigate claims”)). The Court of Appeals acknowledged,
“Here, none of the Plaintiffs are North Dakota
residents, suggesting that the forum state’s interest is
not implicated with respect to providing a forum for its
residents,” citing this Court decision Asahi Metal
Indus. Co. v. Superior Ct., 480 U.S. 102, 114 (1987), but
nonetheless ruled that “this factor does not outweigh
the first three ‘primary’ factors.’” App. 7 (citing K-V
Pharm. Co., 648 F.3d at 592- 93). “Thus, it does not
undermine the propriety of jurisdiction here,” the court
ruled.
The Court of Appeals ruled that “the fifth factor,
convenience of the parties, does not weigh in favor of
exercising jurisdiction” either but “does not change the
outcome here.”
Although the at-issue properties are in North
Dakota, it cannot fairly be said that it is
convenient for the parties—all Singapore

11
residents and citizens—to litigate in North
Dakota. Nonetheless, because the fifth factor
carries less weight, any inconvenience to the
parties does not undermine the propriety of
jurisdiction here. Moreover, Defendant was
willing to travel to North Dakota to advance the
alleged investment scheme, so his complaint
that it would be inconvenient for him to litigate
in North Dakota rings hollow. Based on the
weight of the first three factors and the totality
of the circumstances, Defendant’s “conduct and
connection with [North Dakota] [were] such that
he should [have] reasonably anticipate[d] being
haled into court there.” See Burger King, 471
U.S. at 474 (quoting World-Wide Volkswagen,
444 U.S. at 297). Accordingly, we conclude that
the exercise of personal jurisdiction over
Defendant was proper [App. 7-8]
The Court of Appeals declined to consider forum non
conveniens, stating that defendant did not sufficiently
raise the argument in the District Court. App. 9.
With regard to the grant of summary judgment, the
Court of Appeals rejected Mr. Ee’s argument that Fed.
R. Civ. Pr. 56 required the District Court to assess all
of the evidence that plaintiffs’ counsel submitted with
the summary judgment motion, with the Court of
Appeals ruling that the “deemed admitted” Requests
for Admissions were sufficient standing alone to enter
the $852,638.81 judgment against Mr. Ee – even if the
actual sales contracts the plaintiffs had signed and the
other documents attached to plaintiffs’ summary
judgment motion belied the central legal elements of

12
the breach of contract and other claims on which
plaintiffs’ counsel demanded entry of judgment against
the foreign Mr. Ee:
The Requests asked Defendant to admit liability
for all five counts of the amended complaint,
including the elements of each claim and
underlying facts. Regarding Count 1—violation
of the Securities Act of 1933, 15 U.S.C. § 77a et
seq.—Defendant was asked to admit that he
violated the Securities Act of 19338 and that he
was liable to Plaintiffs for the violations. See R.
Doc. 50-1, at 1-5 (Requests Nos. 1, 3-4, 6-7, 1114, 17-20, 22-26, 31-32). Regarding Count
2—violation of the North Dakota Securities Act
for offering and selling unregistered
securities—Defendant was asked to admit that
he acted as an offeror/seller of NDD securities
and as NDD’s agent, in which he offered and
sold NDD securities that were unregistered and
not exempt from registration in violation of N.D.
Cent. Code § 10-04-04; and that he was liable to
Plaintiffs for these violations. See R. Doc. 50-1,
at 1-6 (Requests Nos. 1-5, 7, 11-14, 19-20, 24, 33,
and 40). Regarding Count 3—violation of the
North Dakota Securities Act for sales of
securities by unlicensedagents—Defendant was
asked to admit that he acted as a seller of NDD
securities, that he acted as NDD’s agent, that he
was unlicensed to sell securities in violation of
N.D. Cent. Code § 10-04-10, and that he was
liable to Plaintiffs for these violations. See R.
Doc. 50-1, at 1-6 (Requests Nos. 1-5, 7, 10-11, 1416, 19-21, 27, 29, 30, 34, and 40). Regarding

13
Count 4—violation of the North Dakota
Securities Act for sales of securities through
untrue statements and omissions—Defendant
was asked to admit that he sold and aided in
selling securities to Plaintiffs without disclosing
material facts in violation of N.D. Cent. Code
§ 10-04-15(2) (including that the investments
were securities, the securities were
unregistered, and Defendant was receiving
commissions); and that he was liable to
Plaintiffs for these violations. See R. Doc. 50-1,
at 1-6 (Request Nos. 1, 3-7, 11, 17-20, 22-26, 2829, 33, 35-40).
Finally, regarding Count 5—negligence under
North Dakota law—Defendant was asked to
admit that he owed Plaintiffs a duty of care (to,
among other things, make sure that the
investments were issued in accordance with
securities laws), that he breached the duty of
care (by, among other things, failing to make
sure that the investments complied with
securities laws), and that his breach actually
and proximately caused Plaintiffs’ injuries
(investment losses). See R. Doc. 50-1, at 1, 7-8
(Requests Nos. 1, 3, 41-44); see also Doan, 632
N.W.2d at 820 (stating negligence standard
under North Dakota law). Because the Requests
were deemed admitted, Defendant admitted to
violating federal securities law, violating North
Dakota securities laws, and to being negligent
under North Dakota law. [App. 10-12]

14
REASONS FOR GRANTING THE PETITION
I. The Court should clarify the due process
limits of specific jurisdiction over a foreign
person.
Most decisions address jurisdiction over foreign
companies, not people. The Court should clarify the
due process requirements for obtaining specific
jurisdiction over a foreign person named as a defendant
in a lawsuit in our Country.
Here, none of the parties are citizens or even
residents of the United States, let alone of North
Dakota specifically. They all live and work in
Singapore, where they had their investment group out
of which Mr. Ee committed his alleged wrongs.
Do our laws really envision that a dispute solely
among Singaporeans that arose in Singapore where the
parties are from will be litigated in our Country’s
courts, rather than in the county where the parties are
from, where they live and work, and where the “untrue
statements,” “sales,” “negligence” and other charged
wrongs by the foreign defendant occurred?
If United States citizens who lived in North Dakota
and had an investment group there claimed they were
defrauded by misrepresentations made to them by a
fellow North Dakota group member, would we expect
the lawsuit to take place in our County, in North
Dakota where all the parties are from and had their
investment group from which the claims arose, or
would we expect the United States citizens to go
litigate their dispute in the foreign country where the
investment happened to be located? Any sensible

15
person would conclude the former. The Due Process
Clause’s limits on personal jurisdiction over a foreign
person should not be so stretched that it defies such
common sense.
By exercising personal jurisdiction over Mr. Ee in
this case, the courts not only stretched the minimum
contacts test too far, they permitted the very type of
unfair litigation that due process and related principles
of forum non conveniens are supposed to avoid. The
only reason this lawsuit was filed in our Country is
because plaintiffs’ lawyers are United States lawyers.
They represented the foreign plaintiffs in the lawsuit
below while their clients remained in Singapore.
Defendant Mr. Ee had no United States counsel. These
lawyers obtained “deemed admitted” Requests for
Admissions then summary judgment premised on them
– even though the actual sales contracts and other
documents belied plaintiffs’ central assertions that Mr.
Ee was a party to the contracts the plaintiffs signed, or
an “agent” who “sold” securities for the actual
wrongdoers who had absconded with everyone’s money.
Exercising personal jurisdiction over Mr. Ee in this
lawsuit gave a tremendous advantage for plaintiffs,
represented by United States counsel, over Mr. Ee, in
Singapore without United States counsel.
We respectfully submit that exercising personal
jurisdiction over this foreign person exceeds the limits
of the minimum contacts test and disregards the
overriding requirement that it must be “reasonable” for
the United States court to exercise personal
jurisdiction such that it does not “offend traditional
notions of fair play and substantial justice.”

16
Recently, in Ford Motor Co. v. Montana Eighth Jud.
Dist. Ct., 141 S. Ct. 1017, 1024–25, 209 L. Ed. 2d 225
(2021), the Court stressed again that minimum
contacts require a showing that the defendant
“purposefully availed” himself “of the privilege of
conducting activities within the forum State,” citing
Burger King Corp. v. Rudzewicz, 471 U.S. 462, 475, 105
S. Ct. 2174, 85 L. Ed. 2d 528 (1985), Hanson v.
Denckla, 357 U.S. 235, 253, 78 S. Ct. 1228, 2 L. Ed. 2d
1283 (1958). The contacts cannot be “isolated,” the
court stressed (citing Keeton v. Hustler Mag., Inc., 465
U.S. 770, 774, 104 S. Ct. 1473, 79 L. Ed. 2d 790 (1984)).
The defendant must have deliberately “reached out
beyond” his home -- “by, for example, ‘exploi[ting] a
market’ in the forum State or entering a contractual
relationship centered there,” quoting Walden v. Fiore,
571 U.S. 277, 285, 134 S. Ct. 1115, 188 L. Ed. 2d 12
(2014).
The plaintiff ‘s claims “must arise out of or relate to
the defendant’s contacts” with the forum. BristolMyers Squibb Co. v. Superior Ct. of California, San
Francisco Cty., 137 S. Ct. 1773, 1780, 198 L. Ed. 2d 395
(2017) (quoting Daimler AG v. Bauman, 571 U.S. 117,
127, 134 S. Ct. 746, 187 L. Ed. 2d 624 (2014); Burger
King Corp., 471 U.S. at 472; Helicopteros Nacionales de
Colombia, S.A. v. Hall, 466 U.S. 408, 414, 104 S. Ct.
1868, 80 L. Ed. 2d 404 (1984); Int’l Shoe Co. v. State of
Wash., Off. of Unemployment Comp. & Placement, 326
U.S. 310, 319, 66 S. Ct. 154, 90 L. Ed. 95 (1945).
“[T]here must be ‘an affiliation between the forum and
the underlying controversy, principally, [an] activity or
an occurrence that takes place in the forum State and
is therefore subject to the State’s regulation.’” Bristol-

17
Myers Squibb Co., 137 S. Ct. at 1780 (quoting Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
919, 131 S. Ct. 2846, 180 L. Ed. 2d 796 (2011)); Ford
Motor Company, 141 S. Ct. at 1024–25.
In the seminal International Shoe decision, the
Court founded specific jurisdiction on an idea of
reciprocity between a defendant and the forum state.
When the defendant “exercises the privilege of
conducting activities within a state” he “enjoy[s] the
benefits and protection of [its] laws” and the state,
therefore, may hold the company to account for related
misconduct. International Shoe Co., 326 U.S. at 319;
Burger King Corp., 471 U.S. at 475. The doctrine is
rooted on the notion of “fair warning” to the
defendant—knowledge that “a particular activity may
subject [the defendant] to the jurisdiction of a foreign
sovereign.” Burger King Corp., 471 U.S. 462; WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297,
100 S. Ct. 580, 62 L. Ed. 2d 490 (1980) (referring to
“clear notice”).
Can it really be concluded that Mr. Ee “reached out”
to North Dakota in this sense? All the plaintiffs are
from Singapore, not North Dakota.
The courts below said that Mr. Ee had “extensive
contacts with North Dakota” “in connection with his
marketing and sales of the NDD investments and real
estate to Plaintiffs.” But the injuries that plaintiffs
claim Mr. Ee caused to them arose from “untrue
statements” that Mr. Ee made to plaintiffs in
Singapore where they all live, work, and have their
investment group.

18
The investment happened to be in North Dakota,
but the actionable conduct—the alleged
misrepresentations by Mr. Ee to his fellow group
members—occurred in Singapore. Plaintiffs charged
that “Defendant violated Section 12(a)(2) of the
Securities Act of 1933” and North Dakota law and
“acted negligently by making material misstatements
and/or omissions regarding the North Dakota-issued
NDD Securities.” These “material misstatements”
occurred in Singapore, not in North Dakota or in the
United States at all.
The Court should grant Certiorari here to clarify
that this does not satisfy the “arise out of” or “relate to”
aspects of the minimum contacts test. The Court
should stress, further, that the minimum contacts
required for a United States court to exercise specific
jurisdiction applies with even greater force where the
defendant is a foreign citizen and resident, not merely
a resident of another state. Cf. Walden, 571 U.S. 277,
(no jurisdiction over out of state officer because no part
of officer’s conduct occurred in forum state).
The Court should define further the limits of the
“relate to” provision by declaring that Mr. Ee’s single
visit to the place where the investment happened to be
located did not satisfy this test. Though Ford Motor
Company, 141 S. Ct. at 1026–27, rejected Ford’s
argument for an “exclusively causal test of connection”
and ruled some relationships will support jurisdiction
without a causal showing under the “relate to” portion
of the minimum contacts test, the Court also noted that
this “does not mean anything goes. In the sphere of
specific jurisdiction, the phrase ‘relate to’ incorporates

19
real limits, as it must to adequately protect defendants
foreign to a forum.” Ford Motor Company, 141 S. Ct. at
1026–27. The Court said that “allowing jurisdiction in
these cases treats Ford fairly, as this Court’s
precedents explain. In conducting so much business in
Montana and Minnesota, Ford ‘enjoys the benefits and
protection of [their] laws’—the enforcement of
contracts, the defense of property, the resulting
formation of effective markets. International Shoe Co.,
326 U.S. at 319. All that assistance to Ford’s in-state
business creates reciprocal obligations—most relevant
here, that the car models Ford so extensively markets
in Montana and Minnesota be safe for their citizens to
use there. Thus our repeated conclusion: A state
court’s enforcement of that commitment, enmeshed as
it is with Ford’s government-protected in-state
business, can ‘hardly be said to be undue.’” Ford Motor
Company, 141 S. Ct. at 1029–30.
Does the Court’s rationale in Ford Motor Company
support the District Court’s exercise of personal
jurisdiction over Mr. Ee in this case? Could Mr. Ee
have “reasonably anticipated” being sued in the
District Court by his fellow Singaporean investment
group members for whatever he said to them in
Singapore about the North Dakota man camps in
which they all were investing?
Do Mr. Ee’s contacts with North Dakota fall within
the allowable limits of the “relate to” jurisdiction found
proper in Ford Motor Company, or was jurisdiction
over Mr. Ee improper under Bristol-Myers Squibb Co.,
137 S. Ct. at 1785, where the Court said that
jurisdiction was improper because the forum State and

20
defendant’s activities in it lacked sufficient connection
to the plaintiffs’ claims, and the plaintiffs there, like
the Singaporean plaintiffs here, were not citizens or
residents of the forum.
The Eighth Circuit below applied a five-factor test
to measure defendant’s contacts with the forum: (1) the
nature and quality of the contacts with the forum state;
(2) the quantity of those contacts; (3) the relation of the
cause of action to the contacts; (4) the interest of the
forum state in providing a forum for its residents; and
(5) the convenience of the parties, citing Land-O-Nod
Co. v. Bassett Furniture Indus., Inc., 708 F.2d 1338,
1340 (8th Cir. 1983). The Court of Appeals said that
factors (4) and (5) are of “lesser importance,” however,
and though they weighed against the exercise of
specific jurisdiction over Mr. Ee in this case were not
sufficient to defeat plaintiffs’ claim of jurisdiction.
The Court should clarify that these fourth and fifth
factors granted only “lesser important” under Eighth
Circuit precedent are, in fact, an important part of the
specific jurisdiction inquiry limiting a court’s exercise
of jurisdiction over a defendant—particularly a foreign
person as in this case—to only that which is
“reasonable, in the context of our federal system of
government” and “does not offend traditional notions of
fair play and substantial justice.’” Ford Motor
Company, 141 S. Ct. at 1024 (quoting International
Shoe Co., 326 U.S. at 316–17).
The Court should clarify the importance of applying
forum non conveniens principles in assessing that
“reasonableness” aspect of personal jurisdiction law.
Ford Motor Company, 141 S. Ct. at 1025, stressed that

21
forums have interests relative to each other in regards
to personal jurisdiction – one state’s “sovereign power
to try” a suit may prevent “sister States” from
exercising their authority over the suit. Specific
jurisdiction limits the exercise of a court’s authority
over “absent” defendants, but it also seeks to ensure
that states with “little legitimate interest” in a suit do
not encroach on states – or here nations - more affected
by the controversy. Bristol-Myers Squibb Co., 137
S. Ct. at 1780.
Here, Singapore would certainly seem to have the
greater interest in adjudicating breach of contract,
fraud, and related claims by some of its citizens against
another. Plaintiffs argued in the Court of Appeals
below, “North Dakota certainly has an interest in
adjudicating the sale of unregistered and
nonexempt—and therefore unlawful—securities related
to real property located in North Dakota and issued by
a North Dakota company.” But this was already part
of the lawsuits by the SEC against Gavin and Hogan,
and part of the claims against the lawyers involved.
North Dakota’s interests have little to do with this
dispute between foreigners over charged
misrepresentations, negligence, and other wrongs
committed by one investment member against his
fellow members. That the investment was in North
Dakota was pure happenstance; it did not give North
Dakota or any of its citizens a real interest in this
lawsuit in a constitutional sense.
The alleged misrepresentations and wrongs by Mr.
Ee occurred almost entirely—if not entirely—in
Singapore. The place where the alleged wrongs

22
occurred is typically the place whose laws apply, which
also weighed heavily against exercising personal
jurisdiction over the foreign defendant here, the Court
should clarify, see, e.g., Sosa v. Alvarez-Machain, 542
U.S. 692, 705–07, 124 S. Ct. 2739, 159 L. Ed. 2d 718
(2004) (noting “dominant principle in choice-of-law
analysis for tort cases was lex loci delicti: courts
generally applied the law of the place where the injury
occurred”), citing Richards v. United States, 369 U.S. 1,
11–12, 82 S. Ct. 585, 7 L. Ed. 2d 492 (1962) (“The
general conflict-of-laws rule, followed by a vast
majority of the States, is to apply the law of the place
of injury to the substantive rights of the parties”);
Restatement (First) of Conflict of Laws § 379 (1934)
(defendant’s liability determined by “the law of the
place of wrong”; same principle for torts of fraud and
torts involving harm to property); Day & Zimmermann,
Inc. v. Challoner, 423 U.S. 3, 96 S. Ct. 167, 46 L. Ed. 2d
3 (1975) (noting Texas would apply Cambodian law to
wrongful-death action involving explosion in Cambodia
of an artillery round manufactured in United States).
The courts below disregarded these critical aspects
of due process law—that even where a defendant
purposefully established minimum contacts with the
forum, the presence of other considerations may
“render jurisdiction unreasonable” constitutionally,
Burger King Corp., 471 U.S. at 477. The exercise of
jurisdiction must comport with “fair play and
substantial justice” and be “reasonable” as judged by
(1) the extent of the defendants’ purposeful injection
into the forum state’s affairs; (2) the burden on the
defendant of defending in the forum; (3) the extent of
conflict with the sovereignty of the defendant’s state;

23
(4) the forum state’s interest in adjudicating the
dispute; (5) the most efficient judicial resolution of the
controversy; (6) the importance of the forum to the
plaintiff’s interest in convenient and effective relief;
and (7) the existence of an alternative forum.
The Eight Circuit failed to apply those factors.
Their precedent that the fourth and fifth factors of
their test are of “lesser importance” fails to properly
apply the “reasonable” component of governing due
process law and the related principles of forum non
conveniens. Applying those factors here - nationalities
of the parties, location of the evidence, location and
availability of witnesses, respective burdens on the
parties of proceeding in the North Dakota forum, and
the potential impact of the lawsuit on the relationship
between the United States and another sovereign
nation – they all weigh in favor of declining to exercise
jurisdiction over this almost purely Singaporean
dispute. This forum non conveniens analysis is
consistent with Asahi Metal Industry Co., 480 U.S. at
114, where the Court said, “The unique burdens placed
upon one who must defend oneself in a foreign legal
system should have significant weight in assessing the
reasonableness of stretching the long arm of personal
jurisdiction over national borders.” Only Courts of
Appeals seem to have addressed the showing required
for a foreign individual defendant to show that the
exercise of personal jurisdiction over him in the case at
hand would be “unreasonable,” see, e.g., Nowak v. Tak
How Invs., Ltd., 94 F.3d 708 (1st Cir. 1996) (noting that
because it is almost always inconvenient and costly for
foreign party to litigate in state court, defendant must
demonstrate that exercise of jurisdiction is onerous in

24
special, unusual, or other constitutionally significant
way); Ballard v. Savage, 65 F.3d 1495 (9th Cir. 1995)
(addressing issue).
We respectfully ask the Court to grant Certiorari in
this case to correct the wrongful assertion of
jurisdiction over Mr. Ee by the District Court and to
clarify the important principles of due process law
discussed above.
II. The Court should clarify the extent to which
a district court is required to assess the
evidence that the plaintiff submits on
summary judgment, and related aspects of
Fed. R. Civ. Pr. 56.
The Court of Appeals’ ruling that summary
judgment for plaintiffs could be premised solely on the
“deemed admitted” Requests for Admissions that
plaintiffs’ counsel obtained against the foreign
defendant contradicts the language of Federal Rule of
Civil Procedure 56, part (c) of which provides,
(1) Supporting Factual Positions. A party
asserting that a fact cannot be or is genuinely
disputed must support the assertion by:
(A) citing to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those made
for purposes of the motion only), admissions,
interrogatory answers, or other materials; or
(B) showing that the materials cited do not
establish the absence or presence of a

25
genuine dispute, or that an adverse party
cannot produce admissible evidence to
support the fact.
… (3) Materials Not Cited. The court need
consider only the cited materials, but it may
consider other materials in the record.
(emphasis added)
Here, plaintiffs cited to particular parts of the
record by submitting with their summary judgment
motion not only the “deemed admitted” Requests for
Admissions, but the underlying documents on which
plaintiffs premised their claims on which they
demanded judgment—including the sales contracts the
plaintiffs signed. Yet the District Court disregarded
the evidence, and the Court of Appeals ruled,
“assuming Defendant is correct about the alleged
shortcomings in some of Plaintiffs’ evidence, the
deemed-admitted Requests for Admission alone
demonstrate that Plaintiffs were entitled to summary
judgment.” App. 10.
The Court should grant Certiorari here to clarify
that a District Court must review the materials the
plaintiff has submitted in its summary judgment
motion in order to determine whether the materials the
moving party has “cited” show that a fact cannot be
disputed, or that there is an absence of a genuine
dispute on material facts that establish the elements of
the moving party’s claims. Where the District Court
disregards the “cited” materials the moving party has
submitted in its own summary judgment motion, and

26
those materials belie the material facts on which the
moving party is relying for its claims, the District
Court violates subsection (1) (A) and (B) of Fed. R. Civ.
Pr. 56, and abuses its discretion with regard to the
“may” provision of subsection (3) of the Rule.
In the District Court in this case, plaintiffs
submitted only three exhibits in support of their
summary judgment motion: Exhibit A - Plaintiffs’
Requests for Admissions, which had been deemed
admitted; Exhibit B - form affidavits, obviously
prepared by a lawyer and not by the foreign plaintiffs,
parroting the elements of the causes of action and
attaching the sale documents; and Exhibit C - a one
page Affidavit from Plaintiffs’ lawyer stating that the
Requests for Admissions were served on defendant and
no response was received. Plaintiffs contended in part
as follows in their motion for summary judgment:
Defendant offered and sold unregistered,
nonexempt and fraudulent securities and acted
as an agent on behalf of North Dakota
Developments, LLC (“NDD”) to Plaintiffs. See
Exhibit A (Plaintiffs’ Requests for Admissions)
and Exhibit B (Plaintiffs’ Affidavits) appended
hereto.
Defendant utilized offering materials of NDD
that contained material misrepresentations and
omissions. See Exhibit A appended hereto.
Defendant is strictly liable to plaintiffs. See
Exhibit A appended hereto.

27
Defendant is not and has never been a licensed
securities agent. See Exhibit A appended hereto.
Defendant’s National Registration Identity Card
(NRIC) number is S1305526B.
Defendant
negotiated
and
accepted
compensation based on sales commissions for
the sales of unregistered NDD securities to
Plaintiffs and did not disclose this to Plaintiffs.
See Exhibit A and Exhibit B, appended hereto.
Plaintiffs relied upon the fraudulent
misrepresentations and omissions of Defendant.
See Exhibit A appended hereto.
Plaintiffs, as a direct and proximate result of
Defendant’s sales of NDD, have been damaged.
See Exhibit A and Exhibit B, appended hereto.
Defendant owed a duty of care to the Plaintiffs
and breached that duty. See Exhibit A appended
hereto.
Defendant has not responded to Plaintiffs’
Request for Admissions. See Exhibit C appended
hereto (Affidavit of Plaintiffs’ Counsel James
Booker). Defendant’s failure to respond to
Plaintiffs’ Requests for Admissions deems those
facts admitted and summary judgment
warranted.
Fed. R. Civ. P. 9 provides, “In alleging fraud or
mistake, a party must state with particularity the

28
circumstances constituting fraud or mistake.”
Plaintiffs’ own summary judgment submission does not
meet that standard. The Affidavits of the individual
plaintiffs submitted as Exhibit B by plaintiffs’ counsel
were boilerplate affidavits drafted by plaintiffs’ counsel
that simply parroted the required elements of the
claims asserted and on which plaintiffs’ counsel
demanded entry of judgment. No specifics are set forth
for any individual plaintiff as to what Mr. Ee said,
when he said it, who heard the statement, whether it
was reduced to writing, etc. The Affidavit of Chang
Mun Kum, for instance, simply states,
3. I along with TEO KHIM HO, KOH HWEE
BEN ERIN and NG YIM HAR was offered and
sold an investment
in North Dakota
Developments, LLC (“NDD”) by Defendant
WINSTORN EE HOONG LIANG on January 2,
2013. See Exhibits 1 and 2 to Christina
Affidavit.
I relied upon Defendant WINSTORN EE
HOONG LIANG’s representations regarding the
NDD investments that were offered and sold to
me.
4. Defendant WINSTORN EE HOONG LIANG
acted as NDD’s agent and sold the investment
on their behalf in the form of Land Lease and
Management Agreements and Membership
Units.
5. Defendant WINSTORN EE HOONG LIANG,
never informed me that the NDD investments

29
he sold me were unregistered securities, that
NDD and its various projects were not
profitable, that most of the NDD projects were
never built, that NDD was paying outsized
commissions to salespersons like himself, that
the NDD founders were siphoning enormous
amounts of money from NDD and using it for
personal purposes, and that NDD was a
fraudulent, Ponzi-type scheme.
6. The damages TEO KHIM HO, KOH HWEE
BEN ERIN, NG YIM HAR and I incurred as a
result of Defendant’ s misconduct and the
fraudulent investments sold to me by Defendant
WINSTORN EE HOONG LIANG is $196,035.00.
See Exhibits 1 and 2 to Christina Affidavit.
The documents attached to Mr. Chang’s Affidavit
throw serious doubt on plaintiffs’ central charge that
Mr. Ee was the “agent” for NDD who “sold” on NDD’s
behalf the man camps to plaintiffs. The “Bill of Sale”
attached to Mr. Chang’s Affidavit identifies the
“SELLER” as North Dakota Developments, LLC and
the “BUYER” as “Koh Hwee Ben Erin & Teo Khim Ho
& Ng Yim Har & Chang Mun Kum.” This Bill of Sale
provides that Seller “grants, sells, conveys, transfers
and delivers to BUYER the following Studio”—
identifying a particular unit of the man camps.
Attached is an accompanying letter from NDD’s Danny
Hogan to the Buyers referencing their purchase of the
“executive hotel studio” unit. A “Studio Purchase and
Sale Agreement” again identifies the agreement as
between North Dakota Developments and the
particular plaintiffs. Mr. Ee is not identified or noted

30
anywhere in these written sale documents attached to
plaintiffs’ summary judgment submission. Id.
One of plaintiffs’ central charges below was that
each plaintiff “relied upon the fraudulent
misrepresentations and omissions of Defendant.” Yet
paragraph 3 of the Sales Agreement attached to
plaintiffs’ summary judgment motion provides, “3. No
covenants or representations. Buyer acknowledges
that he/she has not relied on any plans, brochures,
advertisements, representations, covenants,
warranties, or statements of any kind, whether made
by Seller, its agents, assigns, or otherwise, except as
specifically set forth in this Agreement and the
Operating Agreement of the Company. Buyer has
determined to purchase the Studio and related
membership interest in NDD Holdings, LLC in reliance
on his/her own investigation and judgment.” The
District Court did not apply any legal principles of
North Dakota law—or of Singaporean law—to
determine to what extent plaintiffs’ claims against Mr.
Ee, the claimed “agent” of NDD, might be precluded by
this paragraph in the written agreement that plaintiffs
had signed.
The Court should clarify that the District Court
erred by granting summary judgment to plaintiffs
solely on the “deemed admitted” Requests without
assessing these documents also “cited” by plaintiffs’
counsel in the summary judgment motion that
plaintiffs’ counsel filed. The ruling in this case conflicts
with rulings by other Circuits that Rule 56 does not
allow district courts to automatically grant summary
judgment simply because a summary judgment motion

31
is unopposed. Interstate Power Co. v. Kansas City
Power & Light Co., 992 F.2d 804, 807 (8th Cir. 1993)
(“Even if a motion for summary judgment on a
particular claim stands unopposed, the district court
must still determine that the moving party is entitled
to judgment as a matter of law on that claim”); Jaroma
v. Massey, 873 F.2d 17 (1st Cir. 1989) (“a district court
cannot provide by local rule that a motion for summary
judgment will be automatically granted when the
opposing party fails to respond”); Jackson v. Fed. Exp.,
766 F.3d 189, 194–95 (2d Cir. 2014); Anchorage Assocs.
v. Virgin Islands Bd. of Tax Rev., 922 F.2d 168, 175 (3d
Cir. 1990) (for entry of summary judgment, district
court must find that judgment for moving party is
“appropriate”; where the moving party has the burden
of proof on the relevant issues, this means that the
district court must determine that the facts specified in
or in connection with the motion entitle the moving
party to judgment as a matter of law).
In this case, in their first cause of action, plaintiffs
charged that Mr. Ee was liable because “in connection
with the offer or sale of securities” he made “untrue
statements of a material fact or omits a material
fact necessary in order to make the statements, in light
of the circumstances under which they were made, not
misleading” and that plaintiffs “relied on the
misrepresentations and omissions” and “have not
and could not reasonably discover the
misrepresentations and omissions.”
In their
second cause, plaintiffs charged that Mr. Ee offered
or sold a security that was not registered nor exempt
from registration and that Mr. Ee was an “agent” under
N.D.C.C. § 10-04-02.1. In their third cause, plaintiffs

32
charged that “Defendant acted as a ‘seller’ of NDD
securities and an ‘agent’ of NDD.” In their fourth
cause, plaintiffs charged that defendant made
“untrue statements and omissions in violation of
N.D.C.C. § 10-04-15(2)[.]” In their fifth cause, plaintiffs
charged that defendant was liable for negligence—
relying on North Dakota law even though all the
parties, and all the communications between them,
occurred in Singapore where they live, work, and had
their investment group. The Affidavits and sales
documentation that plaintiffs submitted on summary
judgment did not establish a prima facie case of those
required legal elements on which plaintiffs demanded
their massive judgment.
Rule 56 (e) likewise provides that “Affidavits or
Declarations” “used to support or oppose a motion”
must “be made on personal knowledge, set out facts
that would be admissible in evidence, and show that
the affiant or declarant is competent to testify on the
matters stated.” How did the boilerplate affidavits
written by plaintiffs’ United States counsel and merely
signed by the foreign plaintiffs satisfy this requirement
of the Rule? The affidavits are identical except for the
names on them. They parrot what the plaintiffs’
lawyers know is needed to satisfy each element of the
claims on which the demanded judgment was being
premised. Were these really “properly supported”
assertions of fact under subsection (e) of the Rule? The
Court should grant Certiorari to clarify these
important aspects of summary judgment procedure
that affect not only Mr. Ee’s case here but countless
parties involved in civil litigation in lower federal
courts.

33
CONCLUSION
The Court should grant this Petition for a Writ of
Certiorari.
Respectfully submitted,
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioner
Dated: September 22, 2021

